United States Government
Department of Energy
memorandum

DATE:    February 1, 1996

REPLY TO
ATTN TO:    IG-1

SUBJECT: INFORMATION: "Special Audit Report on the Department of
Energy's Arms and Military-Type Equipment"

TO:     The Secretary


BACKGROUND:

 The Department of Energy is responsible for over 50 major
 facilities across the United States, many of which use and
 store nuclear and other sensitive materials. The Department
 maintains a large inventory of arms and military-type
 equipment to use in protecting its nuclear weapons,
 materials, facilities, and classified information against
 theft, sabotage, espionage, and terrorist activity. The
 Department's inventory of arms and military-type equipment
 included handguns, rifles, submachine guns, grenade
 launchers, light anti-tank weapons, howitzers, tanks, and
 armored vehicles.

 DISCUSSION:

 Our review showed that 9 of 10 Departmental sites had more
 arms (handguns, rifles, and other special firearms) on hand
 than appeared necessary to support their missions. The sites
 had accumulated so many arms that they put large stocks of
 unused weapons into storage. Two sites had enough arms to
 equip each security officer on and off duty with over five
 weapons.

 Overall, this property was not always accounted for on site
 inventory lists, complete inventory listings were not always
 available, some property could not be located or had
 incorrect nomenclatures and serial numbers, and property was
 not recorded and tracked in the inventory lists because they
 were defined as nonfunctional. Furthermore, the review
 showed that documentation to support property disposals was not always
 available and correct, sites retained weapons that went
 unused for years but were not identified for disposal, and
 armored personnel carriers were excessed to military museums
 and other locations without documentation that
 demilitarization responsibilities were transferred.

 The Department allowed arms and military-type equipment to be
 loaned and borrowed for extended periods of time even though
 it had established specific policies prohibiting this
 practice. Most of the loans of arms exceeded 1-year in
length or were for unspecified periods of time. In addition,
timely reviews of the loans and borrowed property were not
performed.

The Offices of Nonproliferation and National Security and
Procurement and Assistance Management concurred with the
recommendations and are taking action to resolve the issues
addressed in the report.


                               (Signed)


                          John C. Layton
                          Inspector General


Attachment

cc:   Deputy Secretary
      Acting Under Secretary


                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




        SPECIAL AUDIT REPORT ON THE DEPARTMENT OF ENERGYmS
                 ARMS AND MILITARY-TYPE EQUIPMENT



  The Office of Inspector General wants to make the distribution
     of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available electronically
 through the Internet five to seven days after publication at the
                 following alternative addresses:

             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
               http://www.hr.doe.gov/refshelf.html

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.

               This report can be obtained from the
                        U.S. Department of Energy
             Office of Scientific and Technical Information
                               P.O. Box 62
                       Oak Ridge, Tennessee 37831




Report No. DOE/IG-0385                        Capital Regional Audit Office
Date Issued: February 1, 1996                         Germantown, MD 20874

                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL



           SPECIAL AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
                    ARMS AND MILITARY-TYPE EQUIPMENT


                              TABLE OF CONTENTS


                                                       Page

EXECUTIVE DIGEST                                         1

PART I       - INTRODUCTION                              2

Purpose of Review                                        2

Scope and Methodology                                    3

Observations and Conclusions                             3

PART II      -   ISSUES AND RECOMMENDATIONS

Arms Requirements                                        6

Controls Over Inventories                                7

Property Disposals                                       8

Loans and Borrowed Property                              9

Recommendations                                         11

PART III     -   MANAGEMENT AND AUDITOR COMMENTS
12

APPENDICES

A. Site Weapons Inventory                               17

B. Number of Armed Security Officers Compaired
   to the Weapons Available            18

C. Military-Type Equipment Inventory   19
                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL
                      OFFICE OF AUDIT SERVICES


        SPECIAL AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S
                  ARMS AND MILITARY-TYPE EQUIPMENT


Report Number:   DOE/IG-0385

                          EXECUTIVE DIGEST


    The Department of Energy (Department) is responsible for over
50 major facilities across the United States, many of which use
and store nuclear and other sensitive materials. The Department
maintains a large inventory of arms and military-type equipment
for use in protecting its nuclear weapons, materials, facilities,
and classified information against theft, sabotage, espionage,
and terrorist activity. In May 1995, the Office of Inspector
General, working with the Department, recovered eight armored
personnel carriers that were being offered for sale after the
Department had donated them to a privately owned "military
museum," ostensibly for display purposes. Based on this
incident, we performed a review of the Department's controls over
arms and military-type equipment in its possession.

    Our review showed that the Department needed to improve its
management and control over its inventory of arms and military-
type equipment. Specifically, the Department had more arms
(handguns, rifles, and other special firearms) on hand than what
appeared necessary to support its missions, inventory was not
always accurately accounted for on property listings,
documentation to support disposal actions was not always
available and correct, and the Department did not always follow
property management regulations regarding loaned and borrowed
property.

    The Office of Nonproliferation and National Security agreed
to conduct a needs study and identify unneeded arms and equipment
for excess or destruction. The Office of Procurement and
Assistance Management agreed with the recommendations to conduct
and reconcile inventories of weapons and military-type equipment,
use descriptive property nomenclatures that includes
demilitarization codes, comply with excessing and disposing
policies and procedures, and establish a formal memorandum of
agreement to transfer unneeded property to an approved disposal
site.



                 _______(Signed)____________________
                   Office of Inspector General

                               PART I
INTRODUCTION

     The Department of Energy is responsible for over 50 major
facilities across the United States, many of which use and store
nuclear and other sensitive materials. The
Department maintains a large inventory of arms (the terms arms,
firearms, and weapons are used interchangeably throughout the
report) and military-type equipment to use in protecting its
nuclear weapons, materials, facilities, and classified
information against theft, sabotage, espionage, and terrorist
activity. The Department's inventory of arms and military-type
equipment included handguns, rifles, submachine guns, grenade
launchers, light anti-tank weapons, howitzers, tanks, and armored
vehicles. While most of the arms were acquired for security,
much of the heavier military equipment (tanks, howitzers and
light anti-tank weapons) was acquired from the Department of
Defense and generally used for research and development.

     These types of arms and equipment are susceptible to misuse
because of their sensitivity. For example, in May 1995, the
Office of Inspector General, based on information provided by the
Department, was able to recover eight armored personnel carriers
that were being offered for sale after the Department donated
them to a private "military museum," ostensibly for display
purposes. In another instance reported in the media, a private
museum sold donated military-type equipment to the public.
Newspaper articles have reported that the U.S. military has sold
weapons without diligently investigating the planned use for the
purchases.

PURPOSE OF REVIEW

     Based on the activities associated with the recent recovery
of the eight armored personnel carriers, we performed a review of
the Department's controls over arms and military-type equipment
in its possession. Our objectives were to determine whether (1)
the quantity of arms and military-type equipment on hand was
justified by mission needs, (2) inventory listings of arms were
accurate, (3) property disposals were properly controlled and
executed, and (4) loans and borrowed equipment were appropriate
and accounted for accurately. The purpose of this report is to
summarize the most significant issues identified and point out
where the Department needs stronger controls over its inventory
of arms and military-type property.

SCOPE AND METHODOLOGY

     Our review was conducted at 10 Departmental locations:
Savannah River Operations Office; Pantex Plant; Sandia National
Laboratory; Central Training Academy (CTA); Los Alamos National
Laboratory; Nevada Test Site; Richland Operations Office; Oak
Ridge National Laboratory; Idaho National Engineering Laboratory;
and Pinellas Area Office from May 8 through June 30, 1995. We
were assisted during our review by the Offices of Inspections and
Investigations. The review focused on:
          o    Justifications sites used to support the number of
weapons and other equipment carried in their inventories;

          o    Controls used to maintain inventories of arms and
military-type property;

          o    Documentation of property disposal actions (sales,
excesses, donations, destructions); and

          o    Controls over equipment loaned and borrowed.

     We interviewed Departmental and contractor personnel and
reviewed Federal and Departmental regulations and property
inventories. We compared beginning and ending site inventory
balances for Fiscal Years 1990 through 1995 to determine any
differences. Also, we verified that property on current
inventory lists was on hand. Finally, we reviewed documentation,
when available, that recorded Departmental action in disposing of
arms and military-type equipment.

     The review was conducted in accordance with generally
accepted Government auditing standards for performance audits
except that our analysis of causes and effects for the issues
described was limited in scope. We included tests of internal
controls necessary to satisfy the objectives of the review.

     We discussed the issues with the Director, Office of
Nonproliferation and National Security on October 3, 1995, and
with the Deputy Assistant Secretary for Procurement and
Assistance Management on December 6, 1995.

OBSERVATIONS AND CONCLUSIONS

     The review showed that the Department needed to improve
management control over its inventory of arms and military-type
equipment. Four significant issues were identified involving
either the need for key decisions or improvements in internal
controls and are summarized below. More specific details are
discussed in Part II of this report.


     Our review showed that 9 of 10 Departmental sites (Pinellas
did not have weapons onsite) had more arms (handguns, rifles, and
other special firearms) on hand than appeared necessary to
support their missions. The sites had accumulated so many arms
that they put large stocks of unused weapons into storage. Two
sites had enough arms to equip each security officer on and off
duty with over five weapons.

     Overall, property was not always accounted for on site
inventory lists, complete inventory listings were not always
available, some property could not be located or had incorrect
nomenclatures and serial numbers, and property was not recorded
and tracked in the inventory lists because it was defined as
nonfunctional. Furthermore, the review showed that (1)
documentation to support property disposals was not always
available and correct, (2) sites retained weapons that went
unused for years but were not identified for disposal, and (3)
armored personnel carriers were excessed to military museums and
other locations without documentation that demilitarization
responsibilities were transferred.

     The Department allowed arms and military-type equipment to
be loaned and borrowed for extended periods of time even though
it had established specific policies prohibiting this practice.
Most of the loans of arms exceeded 1-year in length or were for
unspecified periods of time. In addition, timely reviews of the
loans and borrowed property were not performed.

     The Offices of Nonproliferation and National Security and
Procurement and Assistance Management concurred with the
recommendations and are taking action to resolve the issues
addressed in the report.

                               PART II

                    ISSUES AND RECOMMENDATIONS

ISSUES

     Controls and accurate inventory records are necessary to
ensure that arms and military-type equipment are protected and
properly managed. Although the Department has made significant
advancements in this area, further improvements were needed to
ensure that sites maintain adequate control over their
inventories of weapons and military-type equipment. These
improvements, at the minimum, should require that the sites limit
the arms and military equipment on hand to amounts needed;
inventories are accurate and complete; disposal actions are fully
documented; and that loans of property and borrowed equipment are
documented, justified, and approved. Furthermore, we encourage
the Department to identify and correct similar problems that may
exist at other sites not included in our review.


                         DETAILS OF ISSUES


PERSONAL PROPERTY MANAGEMENT

     Department property includes, as defined by the Departmental
Property Management Regulation, Chapter 109, property which is
government-owned, rented, or leased from commercial sources by
and in the custody of the Department or its designated
contractors. The regulation requires:

     o    Development and maintenance of complete and accurate
     inventory control and accountability record systems; and

     o    Identification of property excess to the needs of the
     organization and the reporting of this property to the
General Services Administration for transfer, donation, or disposal;
and disposition of surplus property (if to non-federal organizations) by
sale, abandonment, or destruction, and proper care and securing
of property to include storage and handling.

EQUIPPING PROTECTIVE FORCES

     DOE Order 5632.7A, Protective Force Program, requires that
Departmental protective forces be equipped to effectively,
efficiently, and safely perform routine and emergency duties at
DOE facilities. It also requires that each armed security
officer be assigned, as a minimum, a handgun and ammunition.
Furthermore, the Order states that spare weapons shall be in
sufficient numbers to provide for the replacement of
malfunctioning firearms and to provide firearms to personnel
responding according to approved site response and contingency
plans. A security representative at DOE Headquarters informed us
that the sites should use their Vulnerability Assessments and the
Design Basis Threat Policy to determine the quantities of weapons
and ammunition needed to perform routine security and emergency
duties.

ARMS AND MILITARY-TYPE EQUIPMENT

     The Department did not effectively manage and control its
inventory of arms and military-type equipment. Specifically, our
review showed that (1) sites maintained more arms in their
inventories than appeared necessary to support their missions,
(2) property was not accurately accounted for and controlled, (3)
property disposal procedures needed improvement, and (4) property
management regulations for loaned and borrowed property were not
followed.

Arms Requirements

     Nine of the ten sites (Pinellas did not have weapons onsite)
had more arms (handguns, rifles, and other special firearms) on
hand than appeared necessary to support their missions. Sites
had accumulated so many arms that they put large stocks of unused
weapons into storage.   Weapons in long-term storage can be made
available for special contingencies and are not necessarily
excess.   Our finding in this area is illustrated in the
following schedule which shows the number of armed security
officers, the number of weapons on hand, and the number of
weapons stored for five of the sites.

                NO. OF
                 ARMED        WEAPONS    WEAPONS     PERCEN
     SITE      OFFICERS       ON HAND      IN           T
                                         STORAGE     STORED
    Central          0          843        843         100
   Training
    Academy

    Nevada          141         779        566         73

   Oak Ridge        348        1,207       724         60

  Los Alamos        277        1,293       650         50
   Savannah       604         1,555        236         15
     River

Appendix A shows the number and type of weapons the nine sites
have in their inventories. Appendix B shows the number of
weapons on hand for all 10 sites compared to the number of armed
security officers.

     We recognize that arms are needed for special contingencies
and for replacement of malfunctioning weapons. Also, we
considered that all sites do not have the same mission. For
example, the Central Training Academy's (CTA) mission is to train
Department and contractor personnel in safeguards and security.
However, the CTA maintained 843 weapons in inventory. A CTA
official stated that the weapons were used primarily for training
purposes. The official also stated that the inventory of weapons
was needed because the Department has not standardized weapons at
the sites and CTA wanted the opportunity to train each security
officer on their own type of weapon. However, only 2 of the 102
courses offered required the use of the CTA firearms that are
made available to course participants. It is recognized that, at
all sites, weapons can be made available for special
contingencies and that long-term storage is not synonymous with
excess.

Controls Over Inventories

     Overall, 9 of the 10 sites could not ensure that arms and
military-type equipment on hand were accounted for and adequately
controlled. Specifically, the review showed that

     o    Sites had not accounted for all property on their
inventory lists and complete inventory listings were not always
available; and

     o    Some property could not be located, had incorrect
          nomenclatures and serial numbers, or was not recorded
and tracked in the inventory lists because they were defined as
     inoperable.

The following discusses some of the inventory problems identified
at the sites reviewed. Appendices A and C show the number of
arms and military-type equipment on hand.

     Oak Ridge. According to Oak Ridge's vehicle tracking system
inventories, they were responsible for 10 armored vehicles.
However, Oak Ridge could only account for seven vehicles. Three
armored vehicles, which were to be cannibalized for parts, could
neither be physically located nor was there documentation to
determine how the vehicles were disposed of. Site officials were
unable attempting to locate the vehicles or documentation during
the review, but provided documentation showing the location of
two vehicles after the draft report was issued.

     Other significant problems identified were (1) when weapons
were transferred from one site facility to another, the facility
that transferred the property relied on the gaining facility to
inventory the item without a reconciliation; (2) about 50 weapons
that were recorded on the 1993 inventory were not recorded on the
1994 inventory (site property personnel later located the weapons
at another site facility during our review); and (3) officials
were unable to determine the locations and disposition of 16
weapons which had been transferred offsite. However, with regard
to the 16 weapons, we were able to find them at three different
locations during our review.

     Idaho. Property personnel were unable to locate one armored
vehicle or documentation that supported its disposal. According
to inventory records at Idaho, two armored vehicles were recorded
as on hand. However, only one could be accounted for. The site
was unable to provide documentation that would have shown the
disposition of the other armored vehicle and was trying to
determine its status.

     Los Alamos. The property inventory database system used by
the site contained incorrect item nomenclatures, model and serial
numbers, and locations. Six items listed as guns were actually
radar, paint, or gas guns. Also, one item labeled as a vehicle
tanker was a M-60 tank and a rifle was actually an 8-inch naval
gun. Other examples of inventory errors and inconsistencies were
rifles that had incorrect model and serial numbers along with
inventory locations that did not match the actual locations.
Moreover, during our observations around the site, we found a 20
mm machine gun that was not entered on the database inventory
listing.

     Savannah River. Inventory problems noted at this site
ranged from loss of ammunition to removing items from the
inventory because they were nonfunctional. Site documentation
showed that in 1993 about 4,000 rounds of ammunition were lost
and not recovered. In addition, interviews with site security
contractor personnel disclosed that nonfunctional weapons were
removed from inventory and not tracked. Not tracking the
nonfunctional arms makes the items more susceptible to loss or
misappropriation. However, Savannah River recently changed their
inventory procedures and now tracks nonfunctional weapons in
their inventory.

Property Disposals

     Department property disposals are addressed in Title 41,
Code of Federal Regulations (CFR), Chapters 101 and 109. The
regulations describe how the Department identifies and approves
disposals of excess property by sales, donations, and
destruction. Also, the regulations describe how demilitarization
responsibilities will be handled before property disposals are
made. Demilitarization actions and responsibilities are
important since they are designed to eliminate the lethal nature
of arms and military-type equipment.

     Overall, the Department needed to make sure its property
disposal procedures were followed. For example:
     o    Documentation to support Department approval and
disposition of property disposals was not always available and when
available, contained errors;

     o    Sites were unable to provide copies of documents that
showed the excessed property demilitarization codes;

    o     Site inventory did not contain references to the
supporting shipping documents for disposal of property; and

     o    One site maintained weapons that went unused for years
but were not identified for disposal.

The following discusses examples of how the Department handled
some of its property disposals during the period 1990 to 1995.

     Richland. Documentation to support weapons disposals was
not always available. Richland could not locate disposition
documents for a rifle that was supposedly destroyed in 1993
during the review, but provided that information after the draft
report was issued. . Further, eight fast attack vehicles were
donated to a military museum in 1992. Richland was unable to
provide copies of documents that showed the demilitarization
codes that were to accompany the transferred vehicles.

     Savannah River. Savannah River excessed ammunition to a
Federal agency in 1993. Documentation showed discrepancies in
the amount shipped; transfer documents showed 253,336 rounds
while the excess list showed 237,912 rounds. The discrepancies
were not resolved during our review. Also, four armored
personnel carriers were excessed to a Federal agency and a local
law enforcement department. Savannah River was unable to provide
documentation that showed the demilitarization codes for the
carriers.

     Los Alamos. Los Alamos needed improvements in recording and
tracking disposals. Their inventory database showed that
property was disposed of but did not always indicate where the
property went. Although we were able to determine where the
property was, we had to review many shipping documents before the
locations could be identified. During our observations around
the site, we noted two TOW Launchers and one Russian Rocket
Launcher located in a site bunker. The property had not been
entered into the inventory and had not been used during the 15
years it had been stored onsite.

Loans and Borrowed Property

     Departmental property management regulations permit loans
and borrowing of Government property within the Department and
with other entities. This property must be covered by written
agreements that include all terms of the transaction.
Departmental regulations require that these transactions be for a
short duration of time-generally 1 year or less. Extensions of
loans for longer than 1 year must be reviewed and justified
annually by management at least two levels above that of the
individual making the determination to loan the property. Loans
for periods longer than 3 years must be approved by the head of
the field organization or designee. The Department had
established specific policies regarding equipment on loan because
it wanted to ensure that its equipment was being used in a
responsible manner.

     Our review showed, however, that the Department loaned and
borrowed property without following the property management
regulations. Specifically, we identified loans that exceeded the
prescribed timeframes without the required review and approvals.
In some cases, the loan documents stated that the loans were for
an indefinite period of time. Most loans made by the Department
were for handguns, rifles, and armored personnel carriers to
local law enforcement agencies.   The heavier military equipment
(tanks, howitzers, and light anti-tank weapons) were generally
used for research and development by the Department and a mining
school. We also found that loaned and borrowed property was not
always tracked in site inventory listings. For example, the
Department borrowed military-type property (tanks, howitzers,
grenade launchers, and armored personnel carriers) from the
Department of Defense but did not properly inventory the
property. The heavier military equipment (tanks, howitzers, and
light anti-tank weapons) were generally used for research and
development.

     Although the sites had documented most of the loans we
reviewed, most of the loans exceeded the 1-year period specified
by Department regulations, and, in some cases, the loans were for
unspecified periods of time. Eight of ten sites loaned property
to activities outside of the Department. The following discusses
how the Department loaned and borrowed property.

     Richland. Richland loaned arms (14 rifles, 10 shotguns) to
a local law enforcement department in 1987. During the review
Richland was unable to determine the status of the loan
agreement, but However, Richland had not updated the loan
document or obtained the required approvals to extend the loan.
Richland representatives stated that authority for the loans came
through a memorandum of understanding between the law enforcement
department and site Departmental officials. After the draft
report was issued, Richland determined that the arms were
provided to the same local agency as Government furnished
equipment under a 1992 contract for law enforcement services.
They believed that the memorandums of understanding were
sufficient to authorize the loans for periods of time beyond the
allowed timeframes.

     Oak Ridge. Nine military rifles (3 M-16s and 6 M-14s) were
loaned to the local police department in 1991. The property was
still on loan under the original 1991 agreements that showed the
loan period as indefinite. Reviews were not performed and
approvals were not obtained to extend the loans beyond the 1-year
period.

     Sandia. Sandia had borrowed military-type property from the
Department of Defense. During our observations of site property,
we observed 28 T-47 tanks and 1 T-62 tank, 4 howitzers, 2
Sergeant Yorks, and 1 armored personnel carrier. Site officials
stated that all the tanks were inoperable but that the howitzers
and armored carrier were operational. Only the 2 Sergeant Yorks
were included in the inventory, the remaining property was not.
Further, Sandia was unable to provide documents that showed
ownership, justification for the property, and how long it was to
be in possession of the property.

CONCLUSION

     Due to recent National events, public sensitivity has been
heightened regarding the management and control of Federal
inventories of arms and military-type equipment. For this
reason, we concluded that the Department should ensure that all
of its facilities and sites comply fully with procedures
regarding arms and military-type equipment. Further, we believe
that the existing procedures should be reexamined to ensure that
they are appropriate given the current security environment. To
this end, we are providing specific recommendations in the
succeeding section of this report.

RECOMMENDATIONS

We recommend that the Office of Nonproliferation and National
Security coordinate with security officials at each Departmental
site to:

     1.   Conduct a "needs study" to determine the arms and
military-type equipment necessary.

     2.   Identify unneeded arms and equipment for excess or
     destruction.

We recommend that the Office of Procurement and Assistance
Management in coordination with the Office of Nonproliferation
and National Security and the Departmental sites:

     3.   Conduct wall-to-wall inventories of weapons and
military-type equipment and reconcile to inventory records.

     4.   Require sites to reconcile their inventory records for
     weapons and military-type equipment loaned and borrowed.

     5.   Use consistent and descriptive property nomenclatures,
that includes demilitarization codes, to clearly identify weapons
and military-type equipment in inventory records.

     6.   Ensure compliance with Federal and Departmental
policies and procedures for excessing and disposing of weapons and
military-type equipment in the Department. At the minimum, require
the sites to:

               a. Include management of weapons and military-
type equipment in the Business Management Oversight Reviews;

               b. Identify demilitarization requirements and
exceptions, if any; and
          c. Report and screen weapons and military-type
equipment excessed through the General Services Administration.

     7.   Establish a formal process through a memorandum of
agreement to transfer unneeded weapons and ammunition to an
approved disposal site.

                              PART III

                   MANAGEMENT AND AUDITOR COMMENTS


    The Offices of Nonproliferation and National Security and
Procurement and Assistance Management concurred with the
recommendations and either have taken action or are planning to
take action to resolve the issues addressed in the report. The
following provides management's general and specific comments and
planned actions to the recommendations. We have included auditor
comments where appropriate.

General Comments

    The Office of Nonproliferation and National Security stated
that they are aware of excess firearms within the complex and are
directly responsible for requesting that excess firearms remain
in onsite storage. In the last 5 years, the Department has
significantly reduced the total number of armed protective force
personnel. At the onset of these reductions, the Office of
Safeguards and Security discovered a practice, on the part of
field organizations, to destroy unneeded firearms. This practice
was the result of Government Services Administration regulations
which prevented the transfer of firearms to other than Federal
agencies with law enforcement missions. The Office of Safeguards
and Security subsequently requested that firearms not be
destroyed and lists of firearms identified as excess be provided
to Headquarters for review. The office developed a listing of
over 1,000 firearms identified as excess. This listing was first
distributed within the Department and later to the Federal Bureau
of Investigation, the U.S. Marine Corps, and the Federal Law
Enforcement Training Center. Excess firearms will be transferred
to a requesting organization through appropriate channels.

     The Office of Nonproliferation and National Security added
that the Department of Justice, as part of the President's Anti-
Crime Initiative, is currently developing a program intended to
formally provide excess Federal law enforcement equipment to
local law enforcement agencies. The Office of Safeguard and
Security is working closely with the National Institute of
Justice to develop a formal process, through a memorandum of
agreement, to transfer Departmental excess equipment in support
of this effort. In the interim, the office has requested that
Departmental excess firearms remain in storage at field
organizations.

Recommendations
    We recommend that the Office of Nonproliferation and National
Security coordinate with security officials at each Departmental
site to:

     1.   Conduct a "needs study" to determine the arms and
military-type equipment necessary.

     2.   Identify unneeded arms and equipment for excess or
destruction.

    Management Comments. The Office of Nonproliferation and
National Security concurred with the recommendations. They
stated that their listing of over 1,000 excess firearms was
distributed within the Department and to the Federal Bureau of
Investigation, the Marine Corps, and Federal Law Enforcement
Training Center. Excess firearms will be transferred to the
requesting organization through appropriate channels. This
process has saved the Government a significant amount of money.

     Auditor Comments.   Management comments are responsive to
the intent of the recommendations.

Recommendations

    We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management, in coordination with the
Office of Nonproliferation and National Security and the
Departmental sites:

     3.   Conduct wall-to-wall inventories of weapons and
military-type equipment and reconcile to inventory records.

    Management Comments. The Deputy Assistant Secretary for
Procurement and Assistance Management agreed with the
recommendation and stated that currently wall-to-wall inventories
of sensitive items, with reconciliation to inventory records, are
required annually or more frequently by DOE Property Management
Regulations. Weapons and military equipment are considered to be
sensitive items. Management issued a letter on December 20,
1995, requesting that field offices and designated contractors
place special emphasis on weapons and military-type equipment as
they conduct their next wall-to-wall physical inventories of
sensitive items.

    This Office also stated that Oak Ridge had provided
documentation to the Inspectors on October 18, 1995, after the
report was issued, concerning the disposition on two of three
armored vehicles that could not be accounted for. Also,
Management stated that Richland provided information concerning
the missing rifle during a follow-up inspection conducted after
the report was issued. Further, Management stated that the
inventory database at Los Alamos does not specifically indicate
the final destination for property that was disposed, but should
contain a reference to the supporting shipping documents
maintained by personal property management functions.

    In addition, the arms (14 rifles and 10 shotguns) provided by
Richland to a local law enforcement department were actually
Government-furnished equipment under the terms of a 5-year
contract entered into on November 17, 1992, therefore eliminating
the need for a separate loan agreement.

     Auditor Comments.   We recognize that commend the dedication
and thoroughness of personnel at Oak Ridge and Richland for
locating provided information subsequent to the review concerning
the status of missingproperty. , and we commend their dedication
and thoroughness of locating the documentation. We have
reflected the status of that documentation in the report.

   However, at the time of the review, Richland property
officials did not provide information or documentation supporting
arms provided as Government-furnished equipment. This situation
further emphasizes the recommendation to inventory and reconcile
records for weapons and military-type equipment loaned and
borrowed to ensure that all property is fully accounted for and
controlled. Management's completed and planned actions meet the
intent of the recommendations.


     4.   Require sites to reconcile their inventory records for
weapons and military-type equipment loaned and borrowed.

    Management Comments. Management concurred with the
recommendation and stated that while Departmental regulations are
adequate, compliance is an issue. They issued a letter
requesting that each field site complete a reconciliation of all
loaned and borrowed equipment by April 30, 1996, with special
emphasis placed on arms and military-type equipment.

    Auditor Comments. Management's planned actions meet the
intent of the recommendations.


     5.   Use consistent and descriptive property nomenclatures,
that include demilitarization codes, to clearly identify weapons
and military-type equipment in inventory records.

    Management Comments. Management stated that use of accurate
and complete item descriptions will provide the visibility needed
in the inventory records and issued a letter requesting that
Department field offices and designated contractors, in
conjunction with the wall-to-wall inventories, review and update
as necessary the item description for each weapon or item of
military equipment in the inventory. Inventory records will
include an accurate and complete item description, applicable
codes, and demilitarization code for each item.

    Auditor Comments. Management's planned actions meet the
intent of the recommendations.


     6.   Ensure compliance with Federal and Departmental
policies and procedures for excessing and disposing of
weapons and military-type equipment in the
Department.   At the minimum, require the sites to:

          a.        Include management of weapons and military-
type equipment in the Business Management Oversight Reviews;

          b.        Identify demilitarization requirements and
exceptions, if any; and

          c.        Report and screen weapons and military-type
equipment excessed through the General Services Administration.

    Management Comments. Management stated that the report
substantiated some of the problems the Department was already
aware of and has already taken the following actions, such as:

    New policy was issued in November 1994 to implement controls
  over "high risk" property. The policy has been refined twice since
  its original issue and is scheduled to be refined again during
  Fiscal Year 1996 by a Department and contractor process improvement
  team. Estimated completion date is September 30, 1996.

    Nationwide training on high risk property was conducted and
  completed during March and April 1995, in conjunction with the
  Office of Nonproliferation and National Security.

    Arrangements were being made with the U.S. Army Logistics
  Management College, Fort Lee, Virginia, to present the Defense
  Demilitarization Program Course to the Department and its
  contractor personnel. In response to a survey, nearly 80 personnel
  expressed a need for the course. The course will be taught in May
  1996 (May 13-17 and 20-24) and August 26-30, 1996. The course will
  provide attendees detailed guidance on demilitarization and
  security trade control requirements and exceptions to
  demilitarization that may apply to Department held weapons and
  military-type equipment. Estimated completion date is August 30,
  1996.

    A National Personal Property Management Conference workshop
  was held in September 1995 on demilitarization and security trade
  controls. The purpose of the workshop was to bridge the gap
  between what the Department and its contractor personnel currently
  know about demilitarization and security trade controls and what
  they will learn in the Defense Demilitarization Program Course.
  The workshop addressed recent issues that have surfaced within the
  Department, provided information on Federal and Departmental
  regulatory requirements for reporting and screening weapons and
  military-type equipment, and identified a number of training,
  database, and publication resources that are currently available.

    Management issued a letter to the field offices on December
20, 1995, reminding them of the requirement to report and screen
weapons and military-type equipment according to the Federal
requirements. They also required the field offices to include
the management of weapons and military-type equipment in the
Business Management Oversight Reviews conducted during calendar
year 1996.
    Auditor Comments. Management's planned actions meet the
intent of the recommendations.

     7.   Establish a formal process through a memorandum of
agreement to transfer unneeded weapons and ammunition to an
approved disposal site.


     Management Comments. Management stated that they plan to
work with the Office of Nonproliferation and National Security
(NN) to insure that the formal process, formalized by NN through
a memorandum of agreement, is implemented. Management issued a
letter on December 20, 1995, requesting field offices use the
memorandum of agreement after completion of all reporting and
screening requirements specified by the Federal Property
Management Regulations and the Department Property Management
Regulations.

     Auditor Comments. Management's planned actions meet the
intent of the recommendations.


                          APPENDIX A



                         SITE WEAPONS INVENTORY


                                Type of Weapons

                                   Sub
                                 Machine     Machin Grenade
 Site     Handgu   Rif   Shotgun   Gun         e    Launcher   Other   Tota
             n     le                          Gun                      l

Savanna    1105    353     20         65          12    0        0     1555
h
  River

Los         661    393     91          0      120      14       14     1293
Alamos

Oak         787    237     107        56          18    0        2     1207
Ridge

Idaho       504    333     16         70          25    9       33      990

Pantex      637    196     21         38          29    0        3      924

CTA         442    170     83         113         22   13        0      843

Nevada      319    320      6         20          70   36        8      779

Richlan     364    139     101        104         12    0        0      720
d
Sandia       349     297          12         27           8          12          4    709

Pinella          0    0            0          0           0           0          0      0
s *


TOTALS      5168     243          457        493         316         84         64   9020
                      8



             * Pinellas did not have weapons onsite.

                                        APPENDIX B



NUMBER OF ARMED SECURITY OFFICERS COMPARED TO THE WEAPONS AVAILABLE


                      Number of              Number of             Weapons
                        Armed                 Weapons           Available Per
          Site        Security                Onsite           Armed Security
                      Officers                                     Officer

    Savannah                604                   1555               2.5
     River

    Los Alamos              277                   1293               4.6

    Oak Ridge               348                   1207               3.4

    Idaho                   249                    990               3.9

    Pantex                  375                    924               2.4

    Nevada                  141                    779               5.5

    Richland                200                    720               3.6

    Sandia                  124                    709               5.7

    CTA*                     0                     843               N/A

    Pinellas                 0                      0                N/A
    **


    TOTALS                 2318                   9020               3.9


     *    CTA did not have armed security officers onsite.
Weapons are used for training and were not assigned to
specific security officers.

          **    Pinellas did not have armed security officers or
weapons onsite.
                                 APPENDIX C


                    MILITARY-TYPE EQUIPMENT INVENTORY

                              Type of Equipment

                      Armored
                     Personne
         Site            l         Tank       Helicopt   Totals
                      Carrier                    er

      Savannah           0          0            2                  2
      River

      Los Alamos        21          0            0                 21

      Oak Ridge         101         0            0                 10

      Idaho             22          0            2                  4

      Pantex            17          0            0                 17

      Nevada            363         0            0                 36

      Richland           3          0            0                  3

      Sandia             1         314           0                 32

      CTA5               0          0            0                  0

      Pinellas5          0          0            0                  0

      TOTALS            90          31           4                125

                  1 One vehicle was unaccounted for.

          2 One armored personnel carrier not accounted for.
Site officials not able to locate or provide
documents explaining disposition.

          3 Three vehicles not operational because they were used
for weapons tests.

          4 Tanks borrowed from Department of Defense. Only two
were included on inventory records. All were used for weapons tests
and were not operational.

             5 CTA and Pinellas did not have military-type
equipment.


                         IG Report No.    DOE/IG-0385

                         CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your
thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the
selection, scheduling, scope, or procedures of the
    audit or inspection would have been helpful to the
    reader in understanding this report?

 2. What additional information related to findings and
recommendations could have been included in this report to
assist management in implementing corrective actions?

3.   What format, stylistic, or organizational changes might
have made this report's overall message more clear to the reader?

4.   What additional actions could the Office of Inspector
     General have taken on the issues discussed in this
     report which would have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your comments.

Name ____________________________   Date_____________________

Telephone _______________________   Organization_____________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may mail
it to:

     Office of Inspector General (IG-1)
U.S. Department of Energy
Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
